<html>
<title> - HIGHWAY BRIDGE INSPECTIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       HIGHWAY BRIDGE INSPECTIONS

=======================================================================

                                (110-82)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 23, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



                   U.S. GOVERNMENT PRINTING OFFICE
38-566 PDF                  WASHINGTON : 2007
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
JULIA CARSON, Indiana                BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California

                                  (ii)

?

                  SUBCOMMITTEE ON HIGHWAYS AND TRANSIT

                   PETER A. DeFAZIO, Oregon, Chairman

BRUCE L. BRALEY, Iowa, Vice Chair    JOHN J. DUNCAN, Jr., Tennessee
NICK J. RAHALL II, West Virginia     DON YOUNG, Alaska
JERROLD NADLER, New York             THOMAS E. PETRI, Wisconsin
ELLEN O. TAUSCHER, California        HOWARD COBLE, North Carolina
TIM HOLDEN, Pennsylvania             RICHARD H. BAKER, Louisiana
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
JULIA CARSON, Indiana                ROBIN HAYES, North Carolina
TIMOTHY H. BISHOP, New York          HENRY E. BROWN, Jr., South 
MICHAEL H. MICHAUD, Maine            Carolina
BRIAN HIGGINS, New York              TIMOTHY V. JOHNSON, Illinois
GRACE F. NAPOLITANO, California      TODD RUSSELL PLATTS, Pennsylvania
MAZIE K. HIRONO, Hawaii              JOHN BOOZMAN, Arkansas
JASON ALTMIRE, Pennsylvania          SHELLEY MOORE CAPITO, West 
TIMOTHY J. WALZ, Minnesota           Virginia
HEATH SHULER, North Carolina         JIM GERLACH, Pennsylvania
MICHAEL A ARCURI, New York           MARIO DIAZ-BALART, Florida
CHRISTOPHER P. CARNEY, Pennsylvania  CHARLES W. DENT, Pennsylvania
JERRY MCNERNEY, California           TED POE, Texas
BOB FILNER, California               DAVID G. REICHERT, Washington
ELIJAH E. CUMMINGS, Maryland         CHARLES W. BOUSTANY, Jr., 
BRIAN BAIRD, Washington              Louisiana
DANIEL LIPINSKI, Illinois            JEAN SCHMIDT, Ohio
DORIS O. MATSUI, California          CANDICE S. MILLER, Michigan
STEVE COHEN, Tennessee               THELMA D. DRAKE, Virginia
ZACHARY T. SPACE, Ohio               MARY FALLIN, Oklahoma
HARRY E. MITCHELL, Arizona           VERN BUCHANAN, Florida
LAURA A. RICHARDSON, California      JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Andersen, Bart, Level 2 Bridge Inspector, Minnesota Department of 
  Transportation.................................................     2
Garrett, Matthew, Director, Oregon Department of Transportation..     2
Gee, King, Associate Administrator for Infrastructure, Federal 
  Highway Administration, accompanied by Gary Henderson, Director 
  of Infrastructure R&D, Federal Highway Administration..........     2
McCabe, Ray, Senior Vice President and National Director of 
  Bridge and Tunnels, HNTB.......................................     2
Washer, Glenn A., Ph.D., P.E., Assistant Professor, University of 
  Missouri-Columbia..............................................     2

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    32
DeFazio, Hon. Peter A., of Oregon................................    33
Mitchell, Harry E., of Arizona...................................    36
Walz, Hon. Timothy J., of Minnesota..............................    40

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Andersen, Bart...................................................    41
Garrett, Matthew L...............................................    45
Gee, King W......................................................    61
McCabe, Ray......................................................    99
Washer, Glenn....................................................   104

                       SUBMISSIONS FOR THE RECORD

Garrett, Matthew, Director, Oregon Department of Transportation, 
  responses to questions from the Subcommittee...................    53
Gee, King, Associate Administrator for Infrastructure, Federal 
  Highway Administration:

  Responses to questions from Rep. Carney........................    71
  Responses to questions from Rep. DeFazio.......................    73
  Responses to questions from Rep. Napolitano....................    90
Washer, Glenn A., Ph.D., P.E., Assistant Professor, University of 
  Missouri-Columbia, responses to questions from the Subcommittee   127


[GRAPHIC] [TIFF OMITTED] T8566.001

[GRAPHIC] [TIFF OMITTED] T8566.002

[GRAPHIC] [TIFF OMITTED] T8566.003

[GRAPHIC] [TIFF OMITTED] T8566.004

[GRAPHIC] [TIFF OMITTED] T8566.005

[GRAPHIC] [TIFF OMITTED] T8566.006

[GRAPHIC] [TIFF OMITTED] T8566.007

[GRAPHIC] [TIFF OMITTED] T8566.008

[GRAPHIC] [TIFF OMITTED] T8566.009



                 HEARING ON HIGHWAY BRIDGE INSPECTIONS

                              ----------                              


                       Tuesday, October 23, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                      Subcommittee on Highways and Transit,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:10 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Peter 
A. DeFazio [Chairman of the Subcommittee] presiding.
    Mr. Higgins. [Presiding.] Welcome everyone. I am not Peter 
DeFazio. I am here in his brief delay. He will be here.
    I want to welcome everybody to the Committee hearing. My 
name is Brian Higgins. I represent Buffalo, New York, the 27th 
Congressional District.
    We have Ranking Member Petri here as well, and I will read 
the opening statement on behalf of Chairman DeFazio.
    On August 1st, our Nation's eyes were opened wide to the 
state of our infrastructure with the tragic collapse of the I-
35W bridge in Minneapolis. While we don't yet know what caused 
that bridge to collapse, we drew necessary attention to the 
needs of our Nation's infrastructure.
    This is the second hearing this Committee has held on the 
state of our bridges since August, and I intend to focus today 
on bridge inspection standards and types and quality of data 
collected through those inspections.
    There are several issues on which I would like to hear from 
our witnesses. I would like to hear about whether or not the 
Federal Government should increase the frequency of baseline 
inspections or perhaps a risk-based approach utilizing in-depth 
inspections on a less frequent basis, the way bridge 
inspections are done in Europe, would that be more appropriate.
    A case could be made for more Federal oversight of 
inspections. Do we need to reevaluate standards for inspection 
qualifications and training?
    I am concerned by the fact that visual inspections are 
still the primary method used to perform routine bridge 
inspections. Visual inspections can only get us so far. In 
today's day and age, technology is revolutionizing the way we 
do business in many different sectors. The tools we use to keep 
our bridges safe should reflect our capabilities in the 21st 
Century. It seems to me we should have better ways of 
inspecting bridges than using a hammer.
    I am also concerned with the 2006 Inspector General's 
report that found that one of 10 structurally deficient bridges 
on the National Highway System had inaccurate load rating 
calculations. Furthermore, signs were not posted on 7.8 percent 
of bridges that were required to have maximum safety weight 
signs posted. That is very troubling.
    Finally, on a positive note, according to a recent survey 
by the American Association of State Highway and Transportation 
Officials, 24 out of 40 States responded and stated that they 
go above and beyond the current requirements of the National 
Bridge Inspection Standards. But if 24 States are surpassing 
Federal standards, that begs the question, what are the other 
16 responding States doing and should we raise Federal 
standards to match what many States already have in place?
    We have enormous opportunity before us to evaluate existing 
inspection standards and to strengthen the current program to 
make our system of bridges safer. I look forward to hearing 
from our witnesses today.
    Mr. Higgins. Mr. Petri for an opening statement.
    Mr. Petri. Thank you very much.
    I am not John Duncan any more than you are Peter DeFazio, 
but I would like to ask unanimous consent that a statement 
prepared for Mr. Duncan be made a part of this record and to 
say that I would like to thank the panel of witnesses for being 
here today. This is obviously a very important subject.
    Technology data, processing technology or sensor technology 
has moved well beyond where we are in terms of utilizing it in 
transportation. We don't do sensors very much on trucks unless 
people pay for it, automatically register their weight and so 
on, which is a big issue with bridges and overweight vehicles. 
A lot of things we could be doing to make the system safer and 
have regulation which was realistically and then actually 
enforced to make the system last longer.
    I look forward to the entire panel's testimony and thank 
you very much for the prepared statements that you are making a 
part of the record.
    Mr. Higgins. Any other Members have an opening statement?
    If not, we will proceed to our panel.
    Mr. King Gee, Federal Highway Administration, Associate 
Administrator for Infrastructure here in Washington, D.C., 
welcome, Mr. Gee.

      TESTIMONY OF KING GEE, ASSOCIATE ADMINISTRATOR FOR 
INFRASTRUCTURE, FEDERAL HIGHWAY ADMINISTRATION, ACCOMPANIED BY 
GARY HENDERSON, DIRECTOR OF INFRASTRUCTURE R&D, FEDERAL HIGHWAY 
ADMINISTRATION; MATTHEW GARRETT, DIRECTOR, OREGON DEPARTMENT OF 
   TRANSPORTATION; BART ANDERSEN, LEVEL 2 BRIDGE INSPECTOR, 
  MINNESOTA DEPARTMENT OF TRANSPORTATION; RAY MC CABE, SENIOR 
  VICE PRESIDENT AND NATIONAL DIRECTOR OF BRIDGE AND TUNNELS, 
   HNTB; GLENN A. WASHER, PH.D., P.E., ASSISTANT PROFESSOR, 
                UNIVERSITY OF MISSOURI-COLUMBIA

    Mr. Gee. Thank you, Mr. Chairman. Mr. Chairman and Members, 
thank you for the opportunity to testify on the National Bridge 
Inspection Program and the Federal Highway Administration's 
research work on bridge technology and inspections.
    With me today is Gary Henderson, Director of Federal 
Highway's Office of Infrastructure Research and Development.
    This is a very important hearing topic in the wake of the 
tragic collapse of the Interstate 35W bridge in Minneapolis. As 
the Chairman noted, the cause of the collapse is still being 
investigated, and we must fully understand what happened so we 
can make sure that it does not happen again.
    Federal Highways is assisting the National Transportation 
Safety Board to complete the investigation as soon as possible. 
Examination of the recovered physical members of the bridge is 
necessary to determine how the bridge collapsed. A computer 
model developed at our Turner Fairbank Highway Research Center, 
based on the original design drawings for the bridge, can 
simulate various failure scenarios which can then be validated 
against the physical evidence.
    As we await the NTSB findings, the Department is taking 
steps in response to what has been learned so far to ensure 
that America's bridges are safe. Two advisories have been 
issued to the States asking that they reinspect their steel 
deck truss bridges and that they be mindful of the added weight 
construction projects may place on bridges.
    Federal, State and local transportation agencies consider 
the inspection of the Nation's nearly 600,000 bridges to be of 
vital importance and invest significant funds in bridge 
inspections. Since the establishment of the National Bridge 
Inspection Standards over 30 years ago, methods and 
technologies for inspections have been continuously evolving 
under a partnership among Federal Highways, the State DOTs, 
industry and academia.
    The NBIS define by regulation not only the frequency and 
types of inspections but the procedures to be used in 
inspecting and rating highway bridges. A ``routine'' 
inspection, which is primarily visual, is the most common type 
and is generally required every two years. The NBIS also define 
qualifications for inspection team leaders, project managers, 
underwater bridge inspection divers and individuals responsible 
for load rating bridges.
    Inspection data on bridge composition and conditions are 
maintained in the National Bridge Inventory. A sufficiency 
rating is calculated based on the data items on structural 
composition, functional obsolescence and essentiality for 
public use. This rating determines funding eligibility for 
rehabilitation or replacement of a structure and assists States 
in prioritizing their bridge investments.
    This sufficiency rating should not be confused with whether 
a bridge is safe. Unsafe bridges are closed.
    Numerous technologies are under development that have the 
potential to substantially advance the practice of bridge 
inspection. Unfortunately, there is no one-size-fits-all 
approach in the use of non-destructive evaluation and testing. 
Each technology is designed for a specific purpose and 
function.
    There are also a number of monitoring systems that can be 
used to provide real-time data and alert the bridge owner to 
such things as threshold stresses in load-carrying members, 
excessive movements, crack growth or scour around a bridge 
pier. However, monitoring systems require customizing for a 
bridge and do not eliminate the need for regular visual 
inspections, nor can they fully guarantee against failure of a 
bridge component.
    Federal Highways actively coordinates a National Bridge 
Research Program with our partners and stakeholders, and that 
program is focused on three areas: the ``Bridge of the 
Future,'' the effective stewardship and management of bridges 
and the safety, security and reliability of bridges.
    Our responsibility for research and technology encompasses 
managing and conducting research, sharing the results of 
completed projects, and supporting and facilitating technology 
and innovation deployment, and that is with academia, the State 
DOTs and industry.
    However, in recent years, the funding structure for the 
Federal Highways Research Program has limited our flexibility 
to carry out many activities important for a national program. 
Nonetheless, I can assure you that any findings and lessons 
that come out of the NTSB investigation will be promptly 
learned and appropriate corrective actions taken and 
institutionalized.
    Mr. Chairman, thank you again for this opportunity to 
testify. We will be pleased to answer any questions you may 
have.
    Mr. Higgins. Thank you, Mr. Gee.
    Our next panelist is Mr. Matthew Garrett from the Oregon 
Department of Transportation, Director.
    Mr. Garrett, thank you.
    Mr. Garrett. I am pleased to be here today and have the 
opportunity to discuss bridge inspections with you.
    In Oregon, as in every State, ensuring the safety and 
reliability of the transportation system are top priorities. We 
take our responsibility for inspecting bridges very seriously, 
and I will tell you this was validated last week when I was out 
on site with some of my dedicated bridge staff. I can tell you 
they understand the gravity of the job they have.
    The Bridge Inspection Program is a comprehensive set of 
procedures, and while the Federal Highway Administration sets 
the standards and monitors State implementation, it is the 
States that actually develop and execute the program. There are 
three types of bridge inspections: routine inspections, 
fracture critical inspections and underwater inspections.
    During routine inspections, engineers and trained 
inspectors look for any signs of deficit or distress. These are 
the symptoms, both on the external and the internal sides, that 
they note. Those conditions are documented, monitored, and 
repairs and recommendations are made if necessary.
    A fracture critical inspection is one that requires an 
inspector to be within an arms-reach of any member that is 
designated fracture critical: beams, bents, cross members and 
such. This normally involves access equipment and climbing. 
This is a very physical inspection.
    Underwater inspections are done by a team of divers looking 
at bridge piers that are in waterways. Oregon's underwater 
Bridge Inspection Program is one of the oldest in the Country. 
It dates back to 1964 when we had floods that damaged several 
of our bridges.
    All bridges receive some form of routine inspection. 
Bridges that are designed to modern standards and are in 
satisfactory or better conditions are inspected very two years.
    The level and frequency of inspection on older bridges can 
vary greatly. Inspection programs are tailored to each of those 
bridges. The bridges we look at we base the inspection program 
on their conditions. In Oregon, we have 78 State-owned bridges 
and 161 local bridges that are inspected more often than twice 
a year.
    States do use a number of types of inspection techniques. 
As mentioned, visual inspections are by far the most common, 
but they are not the only thing. At times, we augment or 
supplement the visual inspections with magnetic particle 
methods, ultrasonic testing, acoustic emissions and ground 
penetrating radar. These techniques require special training as 
well as special equipment.
    In Oregon, we are using special gauges and sensors to 
monitor the health of certain bridges. Oregon is out in front 
when it comes to using advanced technology to assess the 
condition of its bridges.
    The Bridge Inspection Program is continuously modified and 
improved as new knowledge, technologies and standards are 
incorporated. Increased qualifications for bridge inspectors 
were updated as recently as January of 2005, as was the 
inspection interval for fracture critical bridges. In addition 
to that, States must now have quality control and assurance 
programs in place.
    I am proud to say that Oregon has had a very robust quality 
assurance program in place since 1994. It far exceeds the 
minimum Federal requirements. Each year, we select portions of 
each inspector's work, and it is reviewed by a team of their 
peers. Passing this ODOT proficiency test is demanding. The 
scrutiny is intense. We are better for it in the State of 
Oregon, and we have seen greater consistency and continuity in 
our bridge reports, better informing our maintenance plans and 
our long term investment strategies.
    Mr. Chairman, let me conclude by saying there is one 
absolute fact of life: All things will deteriorate. Bridges 
represent the highest unit investment of all elements on the 
highway system. Bridge deficiencies can present the greatest 
danger of all potential highway failures.
    The men and women of ODOT's Bridge Inspection Program are 
committed to maintaining the public safety and confidence in 
those bridges, protecting that public investment, maintaining a 
certain and desired level of service, providing bridge 
inspection proficiency, and providing accurate records and 
information, again to inform the maintenance plans and our long 
term investment strategies.
    Mr. Chairman, thank you very much for this opportunity.
    Mr. Higgins. Thank you, Mr. Garrett.
    Next to testify is Mr. Bart Andersen, Minnesota Department 
of Transportation, Level 2 Bridge Inspector.
    Mr. Andersen.
    Mr. Andersen. Thank you. I want to thank the Chairman and 
Members of the Subcommittee for inviting me to testify today. I 
have a larger statement that I would like to have placed in the 
record.
    I am a bridge inspector and a bridge maintenance worker for 
the Minnesota Department of Transportation, MnDOT, and I am 
also a member of the American Federation of State, County and 
Municipal Employees, AFSCME, Minnesota Council 5. My union 
represents transportation workers across the United States, and 
I am here today to explain how bridge inspectors are trained 
and how we conduct our inspections.
    First of all, our two biggest problems are the lack of 
MnDOT staff and the lack of funds to do the bridge work. MnDOT 
has only 77 inspectors who are responsible for approximately 
14,000 MnDOT bridges. MnDOT policy is to check every bridge at 
least once every two years, and about 30 percent of our bridges 
are fracture critical. We are expected to check these fracture 
critical bridges once a year.
    There aren't enough hours in the work day for 77 inspectors 
statewide to take care of 14,000 bridges the way we should. In 
addition to bridge inspecting, we have a host of other bridge-
related responsibilities that must be performed: patching holes 
on the concrete decks, repairing railings. We also repair wood 
and concrete noise walls and retaining walls. We inspect, 
repair and replace all of our steel support structures for our 
highway signs, and this is by no means a complete list of the 
tasks performed by those 77 bridge inspectors.
    Recently, MnDOT hired private inspectors to assist with the 
backlog to help us meet a December 1st deadline that Governor 
Tim Pawlenty put out for Minnesota. We do not believe this is a 
long-term solution to the problem. In fact, these private 
inspectors were hired after the 35W bridge collapse. If MnDOT 
had a sufficient number of bridge inspectors to begin with, 
there wouldn't be a need to bring in these private inspectors 
at a significantly higher cost.
    In addition to insufficient numbers of personnel, we are 
lacking the funding to improve the safety of the bridges. Many 
of our bridges have reached their 20 year replacement age.
    To compound that need for investment, our bridges built 
since 1950 are, on average, four times larger in size than 
their predecessors. The weight they hold is much greater as the 
trucks that are carrying freight these days are carrying that 
in lieu of trains that used to carry that transport. That means 
our bridges are under more stress and cost more to replace and 
preserve.
    When employees start a career in bridge maintenance and 
inspection, they are required to take a one-week course called 
Concepts for Bridge Inspection. We learn about bridge 
technology, architecture and key components. Then we attend a 
two-week training on comprehensive bridge safety inspection, 
and this course trains us to identify deficiencies and detect 
what is causing them.
    Our inspection program treats bridges differently depending 
on their condition and design. In Minnesota, we have the four 
categories that have been mentioned previously. We also have a 
category that we just call specialized inspections, and these 
are for bridge hits, high load hits or heightened homeland 
security inspections.
    In closing, please understand that MnDOT doesn't have 
enough full time inspectors to keep motorists safe. It is 
impossible for 77 inspectors to check 14,000 bridges throughout 
Minnesota while still performing all the other tasks that are 
required of our job. Although we have a backlog of structurally 
deficient bridges and an increasing problem with steel fatigue 
in many bridges, we lack the funding for replacement, repair 
and preservation.
    I am looking forward as Congress considers these issues. I 
hope you help us solve the problems of insufficient staffing at 
State Departments of Transportation, and I hope you will help 
us with the lack of funding in maintaining the transportation 
infrastructure we currently have.
    The work performed by people like me who inspect, maintain 
and repair bridges is critical to the safety of the citizens 
who use our bridges every day. As public employees, we are 
committed to doing everything we can to protect citizens who 
use those bridges and highways, but we need your support to do 
our jobs as well as we possibly can.
    Thank you for listening. I welcome any questions.
    Mr. DeFazio. [Presiding.] Thank you.
    Mr. McCabe.
    Mr. McCabe. Thank you, Mr. Chairman and Members of the 
Committee.
    Good afternoon. I am Ray McCabe, National Director of 
Bridges and Tunnel Design for HNTB. HNTB is one of the Nation's 
leading engineering and architecture firms with particular 
expertise in the planning and design of transportation 
infrastructure. I am a licensed professional engineer with over 
30 years of experience in bridge planning, design and 
inspection of all bridge types. I have been involved in 
designing some of the Nation's most significant bridges and 
have incorporated the latest technologies when appropriate.
    HNTB is also a member of ACEC, the American Council of 
Engineering Companies, the business association of America's 
engineering industry, representing over 5,500 member firms 
across the Country. On behalf of ACEC and the industry, we 
appreciate the opportunity to testify before you today to 
discuss issues that contribute to bridge safety.
    Bridges are the vital link allowing our transportation 
system to operate seamlessly across the Country. Over half of 
our Nation's bridges were built prior to 1964. Of the 600,000 
public road bridges in the Country, 74,000, roughly 12 percent, 
are classified as structurally deficient. While this percentage 
has declined since the early nineties, progress has been slow 
and the magnitude of structurally deficient bridges is still 
clearly unacceptable, even understanding that deficient bridges 
does not imply unsafe.
    The I-35 bridge collapse in Minneapolis was a national 
tragedy and wake-up call on how we invest in our Nation's 
bridges. While we certainly do not know the cause of the I-35 
bridge collapse, we do know that the bridge was inspected 
according to Federal standards. The engineering community 
anxiously awaits the findings of the NTSB to determine what 
corrections need to be made to our design, construction, 
inspection and maintenance practices.
    Clearly, we need to make improvements to our Bridge 
Inspection Program. Improving inspection procedures and 
techniques will allow us to better allocate available 
resources. However, it is important to remember that the 
information gathered from inspections must be applied to a well 
funded and focused program of bridge repair and replacement to 
prevent future disasters.
    Maintaining our Nation's bridges in a cost effective manner 
and ultimately ensuring the safety of the people who travel 
them requires adequate funding combined with the following 
three components:
    Improvements to our bridge inspection and rating system. 
The National Bridge Inspection Standards enacted in 1974 have 
served us extremely well. FHWA has been very diligent in 
updating standards to meet changing needs and technology as 
well as understanding of bridge problems. Nonetheless, we know 
that the process is not perfect. Bridge inspections are 
generally visual which lead to subjective determinations of 
bridge conditions.
    An FHWA study indicated that in-depth inspections are 
unlikely to identify many of the specific defects for which 
they are prescribed. The study found that less than 8 percent 
of inspections successfully located weld cracks and other 
implanted defects in test bridges.
    Furthermore, the study revealed the inspection ratings were 
highly variable and dependent on such things as bridge 
inspectors' condition and training, inspection site conditions 
and accessibility, structure complexity, and available funding. 
Many factors go into the calculation of sufficiency rating, and 
thus a bridge that is rated structurally deficient may still be 
completely safe.
    Visual inspection practices must be supported by rigorous 
training, certification and quality assurance programs and 
supplemented with testing techniques where necessary to ensure 
reliable results.
    Additionally, the emerging field of structural health 
monitoring holds much promise for real-time evaluation of 
structures and objective evaluation of bridge conditions. 
Providing more quantitative data to bridge program managers 
will enable them to more accurately rate bridges which will 
allow States to effectively allocate bridge rehabilitation 
dollars.
    Two, a dedicated methodology to allocate funding for 
structurally deficient bridges. More money is definitely a 
necessary part of the solution. However, any money targeted to 
fix our Nation's structurally deficient bridges needs to be 
spent based on safety and prioritized using a rational 
approach.
    Funding must be established based on accurate and 
consistent data, used strategically and stretched over as many 
deficient bridges as practical. This can be accomplished only 
by prioritizing our bridges and the individual repairs 
necessary to advance the most critical bridges out of the 
deficient category. As indicated earlier, improved inspection 
techniques will facilitate this approach.
    Such a system may have focused more resources on non-
redundant welded bridges. These bridges must be given special 
attention because we know that non-redundant bridges pose a 
higher risk of sudden bridge collapse from failure of an 
individual member. We have the technology to analyze failure 
scenarios and use the resulting data to determine bridge 
inspection methodology and retrofit techniques to reduce risk 
of bridge collapse.
    Finally, applying advanced technologies, techniques and 
materials. New bridge designs and rehabilitation of existing 
bridges must make full use of innovative technologies and more 
durable materials. Resiliency is the key. Today's bridges need 
to diffuse loads and absorb stresses more effectively. They 
need to be able to withstand abrupt forces more readily and 
with less resultant damage.
    We need to incorporate high performance concretes and 
steels into new spans and into the structural renovation of 
existing bridges. Innovative rapid construction techniques 
should also be considered to minimize inconvenience to the 
traveling public.
    The probability of a bridge failure is extremely low. 
However, it is not zero. It should be, except for failure due 
to extreme events.
    The way to insure the safety of our Nation's aging bridge 
infrastructure is not just additional funding or rigorous 
inspection or advanced technologies alone. It is all three put 
to a concerted use. Let's not wait for the next failure.
    Thank you for the opportunity to provide my testimony. I 
look forward to your questions.
    Mr. DeFazio. Thank you, Mr. McCabe.
    Dr. Washer, we are going to have to hold your testimony. We 
have a series of three votes. There is five minutes left until 
the next vote. So we should hopefully be back in about 20 
minutes.
    On that, the Committee stands in recess.
    [Recess.]
    Mr. DeFazio. Back to order. We left off with Dr. Washer's 
testimony. Thank you for your indulgence with the schedule 
here.
    Dr. Washer, please, go ahead.
    Mr. Washer. Chairman DeFazio, Congressman Duncan and 
Members of the Subcommittee, good afternoon.
    My name is Glenn Washer, past Chair of the Committee on 
Bridge Management, Inspection and Rehabilitation of the 
American Society of Civil Engineers and Assistant Professor at 
the University of Missouri-Columbia. I am a licensed 
professional engineer in Virginia.
    I am testifying today on behalf of the American Society of 
Civil Engineers, the Country's oldest national civil 
engineering organization representing more than 140,000 civil 
engineers. We would like to thank you for holding this hearing.
    My testimony today will attempt to provide some explanation 
of the nature and role of non-destructive evaluation or NDE 
within the context and condition assessment of highway bridges. 
NDE technologies describe a class of technologies intended to 
characterize the conditions of materials and structures without 
causing damage. Visual inspection is the most common form of 
NDE. More advanced NDE methods frequently depend on 
characterizing waves propagating within a material to detect 
anomalies which may be hidden from view.
    [Slide shown.]
    Mr. Washer. A familiar example to most people is a medical 
sonogram which uses acoustic waves launched from a transducer 
on the surface of the skin to assess conditions within the 
body, for example, the existence of a fetus in the womb of a 
pregnant woman as shown in this image.
    The image is an indirect measurement of the fetus based on 
its effect on a propagating wave such that uncertainty can 
exist. For example, the single fetus shown in this image was 
later discovered to actually be twins.
    [Slide shown.]
    Mr. Washer. In a similar manner, acoustic waves can be used 
to detect flaws in bridge members by a technique known as 
ultrasonic testing. This figure shows an image of internal 
flaws in a weld. The bottom image represents the results of 
ultrasonic testing. The top image shows a radiograph or x-ray 
image of imbedded flaws.
    NDE methods such as these can provide powerful tools that 
increase the ability to understand the condition of bridges and 
improve bridge safety.
    There are many NDE techniques available depending upon the 
type of bridge you are assessing. For concrete bridges, NDE 
methods such as sounding, impact echo, ground penetrating radar 
and infrared thermography are available among others. NDE 
technologies for steel bridges include dye penetrant, magnetic 
particle, ultrasonic testing, eddy current testing and acoustic 
emission.
    The role of NDE technologies has traditionally been limited 
in terms of routine inspections of highway bridges. This is due 
in part to the reality that the data generally required to 
complete an NBIS inspection does not require NDE. However, that 
does not mean that NDE technologies are not used for the 
condition evaluation of bridges by State Departments of 
Transportation.
    A significant challenge to the application of NDE 
technologies is providing reliable quantitative results under a 
variety of experimental conditions. Although the capability to 
detect certain types of defects or flaws may exist, the 
reliability of that process under real world conditions must be 
established.
    This has proven difficult in a number of cases due to the 
challenging environment experienced during bridge inspections. 
Widely varying materials, designs and construction practices 
may lead to uncertainty in the results of NDE inspections. A 
broader understanding is required of the complexity of bridge 
inspections and the application of NDE technologies as a part 
of those inspections.
    An additional complication with NDE technologies in general 
is that these technologies are intended to detect and 
characterize flaws. The significance of a detected flaw 
requires engineering analysis to determine if the flaw has a 
detrimental impact on the behavior or durability of a bridge 
and, if so, to also determine the appropriate remediation. This 
process is complicated if the NDE results include significant 
uncertainties.
    In spite of these challenges, the role of NDE technologies 
in bridge inspection has been growing. Methods such as 
ultrasonic testing of bridge pins are in widespread use as are 
magnetic particle testing, dye penetrant and impact echo, to 
name a few. These methods are frequently employed within the 
context of a special inspection where visual inspections have 
identified potentially problematic areas in need of additional 
analysis and testing.
    Research is required to establish which NDE technologies 
can provide data that is reliable and produce results 
significantly beyond what could be accomplished with visual 
inspections. To date, this remains an elusive goal for many NDE 
technologies.
    [Slide shown.]
    Mr. Washer. This figure is an example of such research in 
progress. It is a thermographic image of a concrete block with 
targets embedded in concrete at depths of one, two, three and 
five inches. While providing an impressive demonstration of the 
capabilities of this technology, the practical application of 
this technology within the context of highway bridge 
inspections is a subject of research.
    Significant research gaps also include effective methods 
for the condition assessment of prestressed, post-tensioned and 
cable-stayed bridges where critical structural elements are 
embedded in concrete such that visual inspections are not 
possible.
    In terms of bridge inspection frequency, it may also be 
appropriate to explore if a rational approach to establishing 
inspection intervals based on design, materials, age and 
condition of specific bridges could result in a more effective 
utilization of resources that improves bridge safety.
    Finally, there exists a need for improved training of 
engineers in the science of NDE technologies which is multi-
disciplinary in nature. Such education and the undergraduate 
and graduate levels is needed to develop a foundation of 
knowledge within the engineering community.
    This testimony has attempted to provide some explanation of 
what NDE technologies are and how they are applied within the 
context of highway bridge inspections. Limitations associated 
with the complex nature of bridges and their deterioration has 
been described. There exists tremendous potential to improve 
bridge safety and maintenance through the proper application 
and use of NDE technologies, and additional research and 
development is critical to realizing that potential.
    Successfully and efficiently addressing the Nation's 
transportation infrastructure issues will require long term, 
comprehensive nationwide strategy including identifying 
potential financing methods and investment requirements. For 
the safety and security of our families, we cannot afford to 
ignore this growing problem.
    Thank you, Mr. Chairman. That concludes my statement. I 
would be pleased to take any questions.
    Mr. DeFazio. Thank you. I thank all the witnesses.
    We will now proceed to a round of questions.
    First to the Federal Highway Administration, I guess my 
first question would be, does the Federal Highway 
Administration believe that routine visual, periodic visual 
inspections should continue to be the primary method employed 
by bridge inspectors?
    Mr. Gee. Thank you, Mr. Chairman.
    Yes, we do because it has been shown that it has been 
reliable all these years and, as Mr. Garrett said earlier, we 
have been evolving the technology and the methodologies, so we 
are pretty confident that it is still a cost effective 
inspection technique.
    Mr. DeFazio. But we have the study in 2001 that showed that 
trained bridge inspectors doing visual inspections from around 
the Country, bridges identified with fatigue problems, found 
only 8 percent of the inspectors correctly identified fatigue 
cracks, and you are saying that just because of enhanced 
training or awareness, situational or something, that suddenly 
that 92 percent is now on the ball here?
    Mr. Gee. Well, that study was an internal Federal Highway 
study, and it was a small sample. I would be very careful.
    Mr. DeFazio. Right. Have we replicated it as a larger 
sample?
    Mr. Gee. It has not been.
    Mr. DeFazio. What?
    Mr. Gee. It has not been replicated yet.
    Mr. DeFazio. No, it has not been. Okay.
    Mr. Gee. But based on the findings, partly based on the 
findings of that study, in 2005, we did tighten up the 
regulations so that there is now a quality assurance/quality 
control requirement on the whole program.
    Mr. DeFazio. Well, AASHTO has a study here. They are not 
represented directly today, but perhaps you can address it.
    AASHTO conducted an informal survey in response to one of 
the questions asked on September 5th, and 40 States responded. 
We haven't had a chance to identify who that universe is. 
Twenty-four of the States exceed National Bridge Inspection 
Standards. Depending on how the rest of it breaks down, if it 
continues proportionately, it would be over half up to three-
fifths of the States exceeding the standards.
    Does that cause you some concern or are you just defending 
the basic minimum Federal standards and saying those are more 
than adequate?
    Mr. Gee. It all depends on what you are using it for. I 
think for the safety of bridges in this Country, the standards 
that we have in NBIS are adequate.
    I think the reality is that for the last 10 years the 
Federal Highway Administration has been encouraging the States 
to move more and more towards bridge management, management of 
the assets. In order to do that, the States really do need more 
detailed information, and so we are encouraged that the States 
are moving in that direction to collect more data than is 
required for our National Bridge Inventory.
    Mr. DeFazio. Now the Federal requirement says that 
basically there is a mandate. You have to visually inspect 
bridges once every two years. Is that correct? Okay.
    Is there an enhanced Federal mandate for structurally 
deficient bridges, requiring more frequent review or more in-
depth review or a different sort of review of those bridges?
    Mr. Gee. Yes, there is.
    Mr. DeFazio. Would you explain that?
    Mr. Gee. If a bridge is found to be deficient to a certain 
degree, then there is a more frequent inspection.
    [Subsequent to the hearing, the witness submitted the 
following: while the NBIS does not specify exact intervals for 
any situation where more frequent inspection is required, the 
NBIS does recognize that there are situations where the Program 
Manager must determine that more frequent inspections are 
warranted.]
    Mr. Gee. For example, fracture critical, it can go to one 
year or even more frequent if the State decides that it is that 
much of a concern.
    Mr. DeFazio. If the State decides, it is not a Federal 
requirement.
    Mr. Gee. The framework is set up, and the States have to 
interpret and apply it.
    Mr. DeFazio. Right, but I think perhaps a little more. 
Given the experience which triggered this most recent round of 
scrutiny on bridges, one would think that we might want to be 
reviewing whether or not that is adequate.
    What about these enhanced technologies?
    You said something about incentives in your testimony, 
implementing incentives to increase utilization of advanced 
technology. What sort of incentives are you talking about that 
would get enhanced technology out there? We heard about some 
advanced technology at the other end of the panel.
    Mr. Gee. I think the reference directly was about bridge 
technology as opposed to bridge inspection technology.
    Mr. DeFazio. Okay, so that is initial construction 
basically. You are talking about new.
    Mr. Gee. And maintenance and management.
    Mr. DeFazio. Right, okay, but not about inspection 
technology.
    Mr. Gee. On inspection technology, I agree with Mr. Washer 
in that there is research that yet needs to be done, and so far 
we have been accomplishing some of that research with pooled 
funding with the States because our own funding, our own 
research funding, has been constrained.
    Mr. DeFazio. Mr. Garrett, you have something that I 
couldn't fully understand from your testimony about seven 
bridges that have some sort of enhanced monitoring technology. 
Could you explain that?
    Mr. Garrett. We have, again supplemental to the visual 
inspection and just to go back to your earlier question to Mr. 
Gee, I think it is very similar to a medical examination.
    I think Dr. Washer's MRI or sonogram of the child reminded 
me of a conversation I had with a bridge inspector last week 
when I was out with him. Bottom line, they use that visual and 
that touch. It is a very sensory approach, first line of 
defense, looking for those deficiencies. If they find those, 
they bring forth recommendations, and they apply certain pieces 
of equipment to enhance the visual inspection.
    So we have a variety of gauges or sensors we put on. Just 
to name a couple, corrosion gauges, again this is applied down 
in the coastal area where we measure the electric current 
between the reinforcement in the concrete.
    Mr. DeFazio. Is this on a real-time basis or just as you go 
and inspect?
    Mr. Garrett. As we go, but then we come back. This is one 
of those things that as we see, we want to make sure the 
corrosion is not bleeding into the rebar. We have a process 
called cathodic protection where we coat the bridges with zinc 
and then charge. We are constantly going back, making sure the 
zinc is taking the hit of the corrosion. So we have that 
application.
    We have load cells we place on bridges to make sure that 
the direct load on beams or bearing devices is not compromising 
the load carrying capacity of the bridge. We don't want that 
exceeded.
    We have deflection gauges that measure the lateral movement 
and the vertical movements of the various beams. With crack 
gauges, and certainly this is something that we have placed on 
bridges going back to a couple of years ago, where we are 
monitoring the growth and the movement of cracks in certain 
bridges. So we have those applied.
    Mr. DeFazio. None of these were required by the Federal 
requirements?
    Mr. Garrett. They are not. They are not.
    Mr. DeFazio. Are you aware how many other States might be 
using these sorts of devices?
    Mr. Garrett. No, sir, I am not.
    Mr. DeFazio. Anybody else want to comment on the adequacy 
of the current inspection regime and how we might enhance it 
with technology or any concerns you have about it, frequency? 
Anybody? It is a pretty open question.
    Mr. McCabe. I truly believe that when we look at our 
inspection system, that the qualifications of our inspectors 
have to be tied to the complexity of the bridge and its 
condition, number one. We need improved training in fatigue and 
fracture of structures to our inspection staff.
    Our inspection frequency needs to be risk-based. We can no 
longer just set arbitrary limits and durations for bridge 
inspection. We really need to look at what is the risk of a 
problem with a certain structure.
    Mr. DeFazio. How would that be determined? Who would 
determine the amount of risk and increase the frequency?
    Mr. McCabe. Well, I think we need to come up with a process 
to determine what the risk is based on a number of factors: the 
bridge age, is the bridge fracture critical, what is the level 
of traffic that the bridge sees, are the actual loads that 
bridge sees much more than we even rate the bridge for. So it 
would go through a bunch of factors that would enter the risk-
based equation.
    Mr. DeFazio. So you think you would set up some sort of 
range of parameters, Federally, that then the States would have 
to consult in terms of determining the frequency of their 
inspections and/or the depth of the inspections.
    Mr. McCabe. Correct.
    Mr. DeFazio. Anybody else have any comments to add?
    Mr. Gee?
    Mr. Gee. Mr. Chairman, I think the notion of risk-based is 
something that we have already moved towards. As you know, some 
bridges, especially the newer ones, have inspection frequencies 
that are four years instead of two years.
    Jointly with AASHTO, we sponsored an international scan 
that looked at the practices in Europe, and we are looking at 
the results of those.
    Mr. DeFazio. They are at six years, but they use enhanced 
technologies.
    Mr. Gee. And more in-depth inspection every time. So we are 
looking at that, and we are working together with AASHTO on 
where we go with that.
    Mr. DeFazio. Right, because you don't want to be wasting 
the time of the inspectors on bridges that are newer, that have 
redundancy built in and other things, when they have other 
bridges they should get to. Particularly, Mr. Andersen talks 
about the problem of just getting around to look at everything 
they have, meeting the current schedule, let alone any 
enhanced.
    Do you want to comment on that at all, Mr. Andersen?
    Mr. Andersen. As I had said before, in my situation, I am 
on a crew of five people. So if you take two people off to do 
bridge inspection three days a week, that leaves three people 
to get anything constructive done as far as preventive 
maintenance.
    That is very difficult to do because, and like I said, out 
of those three people, they are responsible for setting their 
own traffic control, transporting all the vehicles and 
materials out to do any patching or anything like that. At the 
end of the day, it is not productive for us to have such low 
level numbers of full time inspectors.
    The inspectors we have, we feel they have adequate 
training. We think they have sufficient information to get 
their job done thoroughly, but it is only when you have the 
time to do.
    When we have bridge hits, when there is a high load that 
comes through and hits a bridge, that is it. That decimates any 
preventive maintenance we can do for sometimes up to two weeks 
because all our concentration goes to that bridge.
    I am a little leery about keeping the emphasis on just the 
routine annual visual inspections because I mean there are 
bridges that we do our routine annual visual inspections on 
that some bearings are 40 feet away. We don't ever look at 
them, and they are never scheduled to get any in-depth 
inspection because they are not quantified as a fracture 
critical bridge. So they don't get the snooper inspections or 
the bridge unit inspections.
    Mr. DeFazio. Mr. Henderson, is there anything coming along 
the pipeline, R&D, that you can see that is going to help us 
with some of these problems?
    Mr. Henderson. Mr. Chairman, while we do recognize the 
value of the visual inspection, as more detailed information is 
needed, we do recognize that we need to move toward the use of 
NDE technologies.
    One of the programs that we have in place currently is the 
Steel Bridge Testing program that was authorized under SAFETEA-
LU. With that program, we are facilitating the development of 
NDE technology with the States, and encouraging advances in 
that particular area. We also are developing a database of 
commercially available NDE technology as well as prototype 
information, and with that database we believe that we will be 
able to provide information to the States that will identify 
the capabilities of those various types of technologies.
    Mr. DeFazio. It is always bad when I ask someone from the 
Administration if they have enough money, and the answer always 
has to be yes. If Congress, in its wisdom, provided, say in the 
next reauthorization, more funding for research in these areas, 
could it be productively spent?
    Mr. Henderson. Mr. Chairman, at the present time, I think 
that we are spending our money in a most effective way, and the 
funds that we are spending in this effective way are addressing 
our current program needs. As you know, with the designated 
program, we do have some limited flexibility as to what we can 
do. However, we do feel that our current program needs are 
being addressed.
    Mr. DeFazio. So you came over from the State Department 
with that. That was a very diplomatic answer. That is good.
    Okay, with that, I turn to Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Mr. Gee, the front pages of the newspapers all across the 
Country have diagrams and charts and articles about the number 
of structurally deficient bridges, but a lot of those same 
articles didn't have the information that we have been given 
and that you mentioned in your testimony, that the percentage 
of structurally deficient bridges had gone down from 18.7 
percent to 12.1 percent today. No matter what somebody's job 
is, they should always be trying to improve and get better.
    Do you think those figures are accurate and, secondly, do 
you think that we are doing better in both bridge construction 
and bridge inspections and do think that percentage is going to 
continue to decrease in the years ahead?
    Mr. Gee. Thank you, Mr. Duncan.
    I believe that the numbers do reflect the trend, that we 
have been, in fact, reducing the number of structurally 
deficient bridges. I think that we have been promoting the use 
of improved materials--high performance steel, high performance 
concrete--and that will keep the bridges lasting longer.
    I think that as we go forward into the future, because we 
have never needed to, we have never been required to, we have 
never had the focus to look at the performance of bridges as 
they near the end of their lives, it is hard to project what is 
going to happen in the future, but we do have an active long 
term bridge performance research program underway right now, 
and we will need results from that program to answer your 
question.
    Are we going to continue to gain on the bad bridges or are 
we going to begin to lose? Right now, we don't have an answer.
    Mr. Duncan. Let me ask you this. In your testimony, you 
mention a program in Missouri. I know SAFETEA-LU authorized $15 
billion in private activity bonds. I didn't get to hear your 
testimony, but I take it that you are impressed by this 
Missouri program or you think it has good possibilities.
    Mr. Gee. We are impressed. Yes, we are impressed because it 
is an innovative approach to a huge problem. As you may know, 
it is 800 and some bridges that the State of Missouri is trying 
to bring to a satisfactory condition within 5 years and then to 
maintain it for another 25, all with private investments that 
will be paid out over time in what we call ``availability 
payments.''
    The point of innovation there is that the private 
consortium will be required to maintain the bridges at a 
certain condition, and I think that is where the innovation is. 
It is to be responsible for maintaining the bridge as opposed 
to reacting to a bridge when it becomes deficient.
    Mr. Duncan. All right.
    Mr. Garrett, in your testimony, you mention that the Oregon 
Department of Transportation has greatly increased the 
requirements for bridge inspectors, the qualifications and so 
forth. Are you seeing results from that? These better qualified 
inspectors, are they finding more flaws or what have you found 
from those increased qualifications?
    Mr. Garrett. Sir, the first thing that jumps out is the 
consistency of the reports across the State of Oregon with 
different geographical challenges across the State of Oregon 
but again with this peer review, and that is what it is. It is 
bringing folks in to oversee and literally scrutinize the 
inspection reports of the previous years. We are seeing 
continuity and consistency in what is coming back to us.
    We think that is yielding better results, and we have seen 
over the last couple of years a 2 percent increase in the 
improvement of our bridge conditions. We see that gradually 
playing itself out over the next five, six years until some of 
the investments we have at the State level and some of the 
investments that came from this Committee play themselves out.
    Again, we are identifying it. We are looking at it specific 
to structurally deficient bridges. We know we have 203 
structurally deficient bridges on the State Highway System, 99 
of those on the National Highway System, NHS. As we forecast 
out to 2011, we will be able to repair or replace 67 of those 
99. So two-thirds of those bridges will be moved up.
    Now again, it is a fluid situation because bridges do 
deteriorate and move on.
    We think we are identifying the problem. We think we have 
people that bring a little more experience and wisdom because 
they are engaged and tested, and we have seen a benefit in the 
State of Oregon because of that.
    Mr. Duncan. I think the only thing you need to be careful 
about is everybody is all for better qualified people and 
continuing education and training and so forth, but you don't 
want to give people so much training that they are not out 
inspecting bridges. There is a balance there.
    Mr. Garrett. Sir, I completely agree with you, but my 
people are thirsty are training. But I certainly understand we 
want them on the ground, eyeballing the bridges.
    Mr. Duncan. Mr. Andersen, you mention that Minnesota's 77 
bridge inspectors cannot be expected to inspect 14,000 
annually. I don't know this. Is Minnesota's ratio of inspectors 
to bridges roughly what other States have and, secondly, how 
many inspectors do you think you really need to inspect those 
bridges?
    As Mr. Gee said a while ago, this raises the question I am 
probably going to get into with maybe one of the other 
witnesses. With improved bridge construction, do you need to 
inspect a brand new, well built bridge as frequently as you 
would an older bridge that perhaps needs more work?
    Mr. Andersen. As far as our ratio to other States, I guess 
I don't have the answer to that, but I think there is a 
difference in the fact that the majority of our inspectors, the 
vast majority, are not just full time bridge inspectors. We are 
required, when we are not bridge-inspecting, every other day to 
do preventive maintenance and repairs off bridges. So there is 
a multitude that we are responsible for outside of just bridge 
inspection.
    I mean I guess to throw out a number, I don't know what an 
accurate number would be to say this is now many would be able 
to fulfill the duties of a demand like we just got to have 
every bridge in the State inspected by December 1st. If we had 
150 inspectors, I don't know if we could have met that deadline 
either.
    Some of those bridges had been inspected within the year, 
but we were instructed they get inspected again. When demands 
come out like that, I don't know there is a number out there 
that we could have on an everyday basis that would still cover 
something like that.
    Like I said, our biggest struggle is we don't just do 
bridge inspections. If that was the case, 77, maybe that is an 
adequate number. I don't know.
    Mr. Duncan. Well, Mr. McCabe, you have a better targeting 
of funding for bridge repairs and improvements and so forth, 
and I suppose everybody is for that.
    In an earlier hearing on this subject, I mentioned that my 
own State of Tennessee, after a bridge collapse in 1988, 
started spending a lot of money on bridges and because of that, 
where the national average is, I think, 12.7 percent or 
something like that, I think we are down 6 percent. We are 
about half the national average. How do you do that?
    If you target the funding to the States that haven't done 
very much, then it looks to me almost like you are rewarding 
States that haven't done what they should have done and you are 
punishing States like mine where the bridges are in better 
shape. So how do you handle that and be fair about it?
    Mr. McCabe. I think it is certainly clear that more funding 
is necessary to attack structurally deficient bridges. I think 
we need to come up with a process to be fair on how we 
distribute those funds. For example, I truly believe that if we 
were to look at deficient bridges, we probably ought to assign 
a time line by which a State needs to turn that bridge around 
and get it out of the deficient category and, if they don't, 
perhaps there needs to be a penalty or perhaps they need to use 
other funding to get it out of that deficient category.
    As I look at some of the bridges, and I-35 might be an 
example, I believe that bridge was on the deficient category 
since 1990. That is 17 years. We need a process that says I 
can't let a bridge be deficient for that period of time. 
Otherwise, maybe there are some penalties that are invoked.
    I do agree that that is an issue that some States that are 
doing the right thing with their funding and their resources 
are turning their system around, and they should be commended 
for that, but I don't believe that we ought to use that as a 
means to say that we don't need to have more funding for a 
national approach to address the deficient bridges.
    Mr. Duncan. Dr. Washer, I think you got into this a little 
bit. Do you think that older bridges need to be inspected more 
than newer bridges, and how would you handle that?
    Mr. Washer. As I mentioned in my testimony, I think that is 
something that is worth looking at, whether a time-based 
inspection frequency makes sense. In many other industries, 
they are looking at actually participating in inspection cycles 
and management methods which are based on different things 
other than time, for example, on risk, to be able to look at 
what is the probability of a certain type of deterioration and 
what are the consequences of that deterioration in order to 
prioritize their inspections and also define their scope.
    Through doing that, you are able to liberate resources in 
order to do more in-depth inspections and possibly utilize 
assessment technologies like NDE to a higher extent than you 
could be if you were, say, inspecting all the bridges on the 
same time line and a frequency based solely on time rather than 
on condition or on risk.
    Mr. Duncan. Right. I assume when you are talking about 
risk, you are talking about what I would assume is bridges that 
carry more traffic or heavier traffic should be inspected a 
little more often than those in very rural or remote areas that 
don't carry much traffic.
    Mr. McCabe. One would expect that to be a component of that 
analysis along with the types of deterioration typical to that 
construction of bridge, the year of construction of bridge, 
knowledge of the deterioration modes are. It is applied in 
manufacturing industries, this concept of a risk-based 
inspection.
    This particular challenge is the highway bridges based on 
the fact that there is a wide variety of materials, different 
constructions, different ages of constructions, which may be 
unique to bridges. So that is an area, I think, of research 
that is certainly worth exploring.
    Mr. Duncan. Thank you.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you, Mr. Duncan.
    Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    I was a little concerned about Mr. Andersen's statement 
that the inspectors are also the maintenance workers that 
actually carry out the corrective actions. It is almost a 
conflict of interest.
    Mr. Gee, do you know if that is a common practice 
throughout the States?
    Mr. Gee. I can't say how common it is, but it does occur.
    Mr. McNerney. Mr. Garrett, is that done? Is that what you 
do in Oregon?
    Mr. Garrett. At ODOT, we have in-house inspectors. We have 
about seven to nine folks that are specific to bridge 
inspection, and then we augment with consultants to focus on 
the local system.
    Mr. McNerney. The people who carry out the maintenance are 
a different set of people?
    Mr. Garrett. That is correct.
    Mr. McNerney. Could you describe, Mr. Garrett, the 
underwater inspection procedure?
    I know, for example, the Bay Area, the Bay Bridge has 
wooden members that are structural members under water. What is 
the procedure for inspecting under water?
    Mr. Garrett. It literally is a team of divers that go down 
and look. We are looking for scour, obviously. So we get down 
there, and we just look for any deficits that are identified. 
Again, we have a very specific team that goes out and crawls 
underneath those bridges.
    We conducted, if my memory serves me correctly, roughly 200 
underwater inspections over the course of the last year.
    Mr. McNerney. Do they have some way to test the steel, the 
structural integrity of the member?
    Mr. Garrett. Yes, exactly. Again using the term, sensors or 
gauges, we actually have a measurement of air flow, air 
pressure. We are looking on there. If it changes, we know 
something has changed within the pier itself.
    Mr. McNerney. How many teams do you have?
    Mr. Garrett. I think we have one team, sir. I don't know 
the number that comprises the team.
    Mr. McNerney. I am not sure who wants to answer this 
question. How is steel fatigue monitored? How do you determine 
if a structural member has integrity?
    Go ahead, Mr. Washer.
    Mr. Washer. I would be happy to address that. There are a 
variety of ways to address that. In terms of monitoring, 
measuring the stresses that are occurring in a bridge has been 
the practice that has been utilized for 30 years, to go out and 
instrument a bridge, measuring which stresses are applied via 
traffic and then measure in terms of the number of cycles and 
the level of those cycles to estimate what the fatigue life is 
of a particular defect or a particular bridge.
    That technology is quite mature following the Silver Bridge 
collapse when there was a lot of focus in that area for steel 
bridges, and so we have the capability to do that.
    There is a host of technologies that are able to go out and 
detect cracks in steel bridges. In one respect, it is because 
cracking in metals is such a large problem over a broad range 
of industries, that there are methods from other industries 
that can be applied to highway bridges.
    The American Society for Non-Destructive Testing has a 
number of methods in which you can become certified for finding 
flaws in steels and metals and things. So there are a lot of 
technologies available for detecting a crack inside a steel 
bridge members.
    Methods of implementing that within the context of bridge 
inspections with the access limitations, the materials 
involved, the coatings and the other difficult environmental 
conditions of bridges is really a large challenge. My view 
would be that the detection of those defects is not as large a 
research challenge as the appropriate implementation of the 
technologies within bridge inspection.
    Mr. McNerney. A lot of what you are describing is you take 
some measurements, so you know what the loads are or the 
stresses too, and then you calculate from the S-N curves or 
wherever, when failure might be expected.
    Mr. Washer. Right, and that is a way of monitoring for the 
development of fatigue cracks, and there is a large body of 
knowledge in that for highway bridges.
    One of the things that has to be recognized is that many of 
the details that were historically problematic in terms of 
fatigue have been eliminated over the last 30 years in the new 
designs. So this goes back to whether it makes sense to be 
inspecting bridges that are 40 years old and which have certain 
design characteristics which are not beneficial in terms of 
fatigue at the same rate that you are inspecting a bridge that 
is 10 years old that has different characteristics in terms of 
fatigue design as well as the quality assurance and the 
manufacturing process of that bridge.
    Mr. McNerney. Thank you.
    Mr. McCabe, you stated, I think, that less than 8 percent 
of staged problems were identified. Was I hearing you correctly 
on that, that less than 8 percent of some sort of problems were 
not identified in regular routine inspection?
    Mr. McCabe. I believe they put out a test to a bunch of 
inspectors, had some flaws in a bridge, and less than 8 percent 
of them were identified by the inspection teams.
    Mr. McNerney. Those are just routine inspections. They are 
not the critical fatigue.
    Mr. McCabe. Fracture critical, right.
    Mr. McNerney. Those weren't staged then. Those were known 
problems that were already diagnosed, and inspectors missed 
them anyway.
    Mr. McCabe. I believe that is correct.
    Mr. McNerney. So that is a fairly alarming statistic then.
    Mr. McCabe. I would say that is an area of concern. 
However, we do know that we have the technology to look at 
cracks in bridges and assess when a crack will become critical. 
Generally--and I don't know what the background of that testing 
was--cracks that are fairly small will take some time before 
they would become of a critical nature.
    I believe our focus really needs to be on the fracture 
critical bridges. History would tell us that those are the ones 
that have had the problems. Those are the ones that have had 
collapses, and we really need a much better risk-based approach 
to inspection and rehabilitation as well as the potential to 
add redundancy to our fracture critical bridges.
    Mr. McNerney. Thank you. I would look to the structural 
health monitoring sub-branch of engineering to help us through 
that sort of decision.
    Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman with his expertise for 
those excellent questions. I realize he is an engineer.
    Mrs. Schmidt.
    Mrs. Schmidt. Thank you. This is a general question, 
perhaps to Mr. Henderson first and then to Mr. McCabe.
    In reading your testimony, I have discovered that there is 
no uniform standard, correct me if I am wrong, for bridge 
inspection throughout the 50 States, that there seems to be 
each State having their own opportunity to design their 
inspections. I know, in some cases, some States have a 
different rating system. In the case of Minnesota, it is far 
different of a rating system than it is in Ohio.
    My concern is two-fold. One is if you don't have matched 
requirements. In Ohio, we have bridges that connect with other 
States. In my district, many of those bridges connect with 
Kentucky. At least with Kentucky, we have the same rating 
system, so it is a zero through nine, I think it is, rating 
system. You can match apples to apples.
    My concern, though, is if inspection teams in one State are 
more proficient in inspecting that bridge than in another 
State. They have more expertise. They have more training. That 
same bridge that is connecting the two States may not be 
getting the same results from the inspections.
    What kind of coordination is going on currently? If there 
isn't, if it is just a handshake kind of a deal, should we at 
the Federal level mandate more close-knit inspections between 
States?
    Mr. Henderson. Congresswoman Schmidt, I believe that King 
Gee would certainly be in a better position to address that 
question regarding the uniform standards for bridge 
inspections.
    Mr. Gee. Congresswoman, we do have national standards, and 
we have had them for about 35 years now. So if there was 
implication in the testimony that there was not, that was not 
correct. We have had those national standards, and we have been 
tightening them over time to take care of scour critical 
structures, to take care of fracture critical.
    We continue to tighten those up as we learn about gaps. For 
example, we now have a requirement that the team leader for a 
bridge inspection team be experienced, qualified according to 
some very specific and objective criteria, and that the team 
leader must be on site. The whole point of having a National 
Bridge Inventory is to have the data collected from all 50 
States be the same.
    Mrs. Schmidt. Mr. Gee, the team leader in all 50 States, do 
they have to have the same educational requirements and 
experience behind them or is that however the State determines 
that?
    Mr. Gee. There are five ways that a team leader can be 
qualified, and that is spelled out in our regulations.
    Mrs. Schmidt. Mr. McCabe?
    Mr. McCabe. I agree with Mr. Gee. I think the standards 
that are set forth by Federal Highway are quite well 
documented, and so there are not differences in the standards.
    Your point about two inspection teams inspecting perhaps 
the same bridge and coming up with somewhat different ratings 
is a fact, and I think it can only be addressed by increased 
training programs, more focus on training these staffs with 
specific examples to get a little bit more uniformity. But I 
think it is a fact of life that we are going to have some 
spread. In a nine-factored rating system, there is going to be 
some spread in that.
    Is it probably out of the ballpark? I mean is the standard 
deviation off a little bit? Perhaps, and I think that will only 
come with some improved training.
    Mrs. Schmidt. Thank you.
    A follow-up question, do you think that we should have a 
national standard of rating so everyone is on a one to nine 
basis instead of some folks on a one to fifty basis, so we can 
clearly look at the ratings of all of these bridges across the 
United States and figure out where they actually fit instead of 
trying to recalculate it to see which is severe and which is 
not severe?
    Mr. McCabe. Yes, I do believe we need a uniform system, and 
I thought there was one in place. I wasn't aware that some 
States may not use the nine-point rating system. I thought that 
was uniform.
    Mr. Gee. Some States have their own systems, but they have 
to crosswalk between what they have and what we have at the 
national level, so there is consistency throughout the national 
compliance reviews. We have compliance reviews that our 
division office in each of the States has to conduct every 
year. We enforce that compliance that way.
    Mr. DeFazio. Have you concluded, Mrs. Schmidt? Okay, thank 
you.
    We then turn to Ms. Richardson. Welcome to the Committee 
and go ahead.
    Ms. Richardson. Thank you, Mr. Chairman, and I also want to 
thank Ranking Member Duncan for holding this very appropriate 
hearing today. I believe one of the reasons we are here is we 
are obviously here because we need to have this discussion, but 
I think the recent collapse of the bridge in Minneapolis has 
caused us to come to this table again and stress the importance 
of us covering it.
    I have a special issue in this hearing today or a special 
interest, I should say, because 12 of those 74,000 that have 
been identified as being structurally deficient, 12 of those 
are housed in my district alone. So this is something that is 
of great concern to me.
    I have six questions, and then I would like to follow up on 
what Mrs. Schmidt said because we obviously have a little 
difference of opinion here.
    We have a background document that I will reference that 
says on page eight: most States have developed some form of 
computer-based bridge management programs. These systems are 
utilized to assist States in managing bridge programs to 
improve the bridge inspection process and the quality of data 
collected and reported to the National Bridge Inventory. These 
systems also assist States in prioritization of system-wide 
investment decisions based on the needs of the bridges and 
tracking the deterioration rate of bridge elements.
    The bridge management systems currently being utilized by 
the States, Mr. Gee, however, vary in complexity and 
capabilities. So you hear several questions. I am hearing you 
saying they are standardized, and yet we have two references on 
both page eight and on page seven that say that both the 
training and the systems that are being used are not 
consistent. They either are or they aren't, which one is it?
    Mr. Gee. There are two things in view here. One is the 
bridge inspection process and the rating system. That is 
standardized. What we refer to as a bridge management system, 
that is not standardized.
    Ms. Richardson. Okay, so that helps clarify that. Thank you 
very much.
    My further questions are, number one, first of all to Mr. 
Gee, regarding the I-35 Mississippi River bridge situation, who 
or what organizations are potentially liable for that 
situation?
    I am a new Member.
    Mr. Gee. The Federal Highway Administration does not own 
any bridges. Actually, we had one that I think we are just rid 
of, the Woodrow Wilson Bridge. The States and local governments 
and other Federal Agencies own the bridges. So it is the owner 
agencies that are liable.
    Ms. Richardson. Okay, thank you.
    Could you provide for us, and maybe you have already but I 
haven't received it, a list of all the steel arch truss design 
bridges in the U.S. that had similar designs as what recently 
collapsed?
    Mr. Gee. Okay, there is a list of about 700. You want the 
list?
    Ms. Richardson. Yes, by State.
    Mr. Gee. We will be happy to provide that.
    Ms. Richardson. Thank you.
    My third question is could you also provide us with a list 
of all the bridges that were noted in the IG's 2006 audit that 
noted there were miscalculations in terms of loads, load 
rating, and also that didn't provide signs of the maximum 
weight allowed?
    Mr. Gee. That study, or audit, was conducted by the 
Inspector General of the U.S. Department of Transportation. We 
don't have his records, so I think the best thing that we can 
do is to talk to him, to ask him to provide those to you.
    Ms. Richardson. Could you, please?
    Mr. Gee. Yes.
    Ms. Richardson. Thank you very much.
    Question number four, which line item in the Department of 
Transportation budget reflects the inspection, repairs and 
ongoing maintenance?
    In the background information we received, it talks a lot 
about funding for inspections but very little discussion about 
the actual ongoing maintenance required. So if you could just 
advise of where that would be in the line item budget.
    Mr. Gee. In our Federal Highway program, the main focus 
over the majority of the last 50 years has been capital 
construction. It is only in the last couple of reauthorizations 
that we have shifted to maintenance. Even then, it is not 
routine-routine maintenance. It is heavier rehabilitation 
maintenance, preventive maintenance.
    But under SAFETEA-LU--and this Committee did accept our 
recommendation and I am very much appreciative of that--under 
the Highway Bridge Program, there is now a preventive 
maintenance element that can be used. In other words, Highway 
Bridge Program monies can be used for preventive maintenance 
activities if it is part of a systematic bridge management 
framework.
    Otherwise, the routine maintenance of bridges is up to the 
States and the local governments, but there is not a specific 
line item for maintenance per se.
    Ms. Richardson. How much is in that account that you 
referenced?
    Mr. Gee. The Highway Bridge Program?
    Ms. Richardson. Yes.
    Mr. Gee. About $4 billion a year.
    Ms. Richardson. I think it was noted in our material that 
in the one area alone $63 billion was needed to address some of 
the structural issues that we have.
    Mr. Gee. That is the backlog of bridge needs right now. 
Based on the Conditions and Performance Report analysis, to 
maintain where we are would require about $8 billion a year 
over the next 20 years to just maintain the condition of 
bridges where they are. I would point out that in 2004 at all 
levels of government, the total spending was $10.5 billion. So 
we are spending more than what the C&P report says we need to 
maintain our condition.
    Ms. Richardson. Okay. Last question because I see my time 
is wrapping up here, on the map that was provided from the 
Department of Transportation that shows the bridges by 
district, it was interesting in my area the Gerald Desmond 
Bridge was not highlighted. The Gerald Desmond Bridge is along 
47 right on the coast there, and it is in such bad shape that 
there is actually what they call a diaper that is underneath it 
to catch the falling pieces of concrete.
    If you could follow up with my office and this Committee as 
to why that bridge isn't included, what is its current status, 
so I can more appropriately be advocating on what is happening 
there.
    Then my final one is we were provided a list of bridges 
that have deficiencies in our districts, but they don't include 
what the structural rating, so if that could be provided as 
well.
    Mr. Gee. Yes, we will do that.
    Ms. Richardson. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentlelady for her questions. I 
think she is an excellent addition to the Committee, and doing 
a fine job.
    Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman. Thank you for holding 
this hearing on this particular subject which is so important.
    I guess we had a failure of the bridge, but we had a 
failure of the inspection process in the sense that nobody 
envisioned that bridge collapsing. So I guess since there was a 
failure of the inspection process or a failure of the 
inspection, I would like to know what you want to do 
differently as far as the process because if you don't have a 
very, very reliable way of identifying the bridges that are in 
trouble, then it doesn't matter if you stick more resources in 
there. You are not sticking them in the right direction.
    If we ranked bridges that people felt like were imminently 
in the worst shape, I think most of the people I have talked to 
and most of the people who have testified would not say that 
based on the inspection, that this bridge would be at the top 
of the list.
    The other thing is that there is some concern, I know, 
about perhaps that there was something that contributed as far 
as the work on the bridge and weight placements on the bridge 
when work was going on and stuff. I would like to know your 
opinion as to whether or not, short term right now, if any word 
is being disseminated as to whether or not that information has 
gotten out so that we don't duplicate that effect. Does that 
make sense?
    Mr. Gee. Sir?
    Mr. Boozman. My sister was redoing the shingles on her 
house. Well, they stacked all the shingles on one side of the 
house and collapsed that portion. That is common sense, but I 
guess I am wondering if we need to legislate or somehow if we 
make a rule or how far do we need to go if that is a major part 
of the deal.
    Mr. Gee. To answer your last question first, I would 
caution against jumping.
    Mr. Boozman. I understand. Yet, on the other hand, I would 
caution if there is strong suspicion that that is the case, 
then you don't want something to happen in the meantime.
    Mr. Gee. Sure, and Secretary Peters, acting out of an 
abundance of caution, did cause us to take some steps to 
respond. Now I would hasten to say, first of all, that the 
exact cause of the collapse of the I-35W bridge in Minneapolis 
has yet to be determined by the NTSB.
    Nevertheless, we did issue two technical advisories. One 
was immediately after the collapse. We asked all States to 
reinspect that type of bridge.
    Secondly, when we found out that construction loadings, 
your point, might be a factor, we asked and reminded all the 
States to keep that in mind. It is already a requirement, when 
they design work on a bridge, to take into consideration all 
the loadings during the construction phasing. That is an actual 
standard, and so we just reminded the States to keep that in 
mind.
    Mr. Boozman. Does somebody actually look at that during 
that? I mean is there a bridge inspector as it goes on?
    Mr. Gee. Not an NBIS bridge inspector as it goes on. It is 
as a project is designed, the structural engineers need to look 
at the loadings that will be on that bridge during the 
construction time.
    Mr. Boozman. Okay. How about the first question about the 
fact that again nobody really anticipated that bridge to 
collapse based on the information that we had?
    Like I say, if we had resources, and I think we are all 
committed to try and get more resources into bridges, the fact 
that that bridge probably would not have been on the top of 
list as far as putting more resources into it.
    Mr. DeFazio. While they are queuing up to answer that 
question, I forgot to recognize that Mr. Garrett has to leave 
at 4:00 to catch a plane. I know how difficult it is to get to 
Oregon. So, Mr. Garrett, if you have to leave, if you want to 
address his question before you leave, you could. If you don't, 
you are dismissed.
    Mr. Garrett. I will defer to my friends.
    Mr. DeFazio. There you are.
    Mr. Garrett. Mr. Chairman, thank you for the opportunity.
    Mr. Boozman. It is okay, Mr. Chairman. It doesn't seem like 
we have a whatever to get it done, but I do think that is an 
important distinction. Like I say, we are committed to try and 
put resources in, but if you are putting based on the 
information that we currently had, we would be putting 
resources in the wrong place in the sense, like I say, that 
bridge would have collapsed based on the inspection thing.
    I know the fact that we have gone and reinspected. The 
other question I would have is in these re-inspections that we 
have done, were there any surprises or were there a lot of 
surprises out there that automatically placed them from the 
middle all the way up to the top or vice versa?
    Mr. Gee. You asked two questions there. The first one is 
there were no real surprises of the almost 700 bridges of that 
same type that were reinspected. We are about 96 percent done 
with the reinspections, and the rest should be done by the 
middle of November. But out of the ones that have been already 
done, there were three States that found problems with some 
bridges, but all told there were only six bridges altogether 
that had a problem that had not been caught in previous 
inspection.
    Now as to whether any of the reinspections cause a bridge 
to be ranked higher, I cannot answer that question.
    Going back to your other earlier question, the I-35W bridge 
was programmed by Minnesota DOT for reconstruction of some 
type. It just hadn't gotten there yet.
    Again, without knowing why it collapsed, we cannot say that 
it was an inspection failure. It was a failure. We just don't 
know what failed.
    Mr. Boozman. Thank you, Mr. Chairman, very much.
    Mr. DeFazio. Thank you, Mr. Boozman.
    With that, I would turn to the Chairman of the Full 
Committee. Everyone else has gone, Mr. Chairman. It would be 
your prerogative.
    Mr. Oberstar. Thank you very much, and I apologize for not 
being here at the outset of the hearing. I had a speech to the 
International Aviation Club about the status of our Aviation 
reauthorization Bill, the U.S./E.U. aviation trade relations 
and the future of investment in airport modernization, and 
upgrading and modernization of the air traffic control system. 
The Q and A period was rather lively.
    I just got back to the Hill, and the votes were underway on 
the House Floor. So I am sorry I have been delayed.
    I want to thank you for chairing this second of our 
hearings on the bridge proposal and for the time and effort 
that you, Mr. Chairman, have devoted to the subject. You are 
very bridge-conversant with the unique situation in Oregon, and 
it has been my pleasure to be there with you to see the 
situation.
    I want to thank all of the witnesses for participating 
today. I did spend time last night, reading over your 
testimony.
    I want to come back to Mr. McCabe. I made tab notes on your 
testimony, parts that I thought were particularly significant.
    Mr. Andersen, I am enriched by your testimony because of 
its honesty, integrity, the straightforward statements that you 
made, unafraid of consequences. I am quite confident that your 
testimony will not be admired at the uppermost echelon of 
MnDOT, but I respect it immensely--your candor, your honesty 
and the factual situation.
    You say we have only 77 inspectors for 14,000 bridges. When 
you point out the exodus of personnel from MnDOT, it has been 
appalling in these last three and a half years. MnDOT has lost 
nearly a thousand top-notch professionals.
    We have a big transportation program in Minnesota, a robust 
transportation program. We have a reputation over many years of 
having the best, one of the best programs of any Department of 
Transportation in the Country, but in recent years it has gone 
downhill.
    As the best skilled personnel--engineers and inspectors and 
managers--have left the program and gone to work for a lot more 
of the private sector, even the private sector has complained 
the MnDOT doesn't have the personnel to oversee the work and 
the contracts that they are carrying out.
    Now I say in our State--and I have told this to the 
governor--that we have a lieutenant governor who is 
commissioner of transportation. Either we don't need a 
lieutenant governor or we don't need a commissioner of 
transportation. My view is we need the latter more than the 
former, and that one person cannot do both jobs and cannot do 
both of them well and is certainly doing neither well right 
now.
    The observation that MnDOT is out of money is very clear 
when the governor and the lieutenant governor try to shift the 
blame or the problem onto the Congress because Congress didn't 
appropriate the $250 million authorized in the bill that we 
passed within 48 hours of the bridge collapse. Forty-eight 
hours, to get a bill through Congress in 48 hours, you can't 
even pass a prayer in Congress in 48 hours anymore.
    To say, well, we can't move ahead because we don't have 
that whole $250 million appropriated, they know full well that 
the way the Federal-Aid Highway Program works is that the State 
pays the contractor and then bills the Federal Government for 
repayment.
    MnDOT's problem is they had only $6 million in the whole 
transportation account because this Administration has had the 
entire transportation on auto pilot ever since 1988 when, under 
the Perpich Administration and two successive legislative 
sessions, we increased the gas tax a total of 7 cents. We had 
enough revenue going to cover over through the Carlson 
Administration, through the Ventura Administration and now into 
this one.
    They have had the luxury to say, well, we don't have to 
increase the gas tax. All during that time, the value of the 
construction dollar has been eroding 33 to 47 percent, and you 
have to replenish those funds in order to be able to make the 
investments.
    When, in your testimony, Mr. Andersen, you say routine 
annual inspections are typically done without specialized 
equipment. Visually survey the deck, bearings railings. 
Fracture critical inspections are done with trucks, scaffolds 
or man lifts. Underwater inspections are done by private 
contractors.
    Twenty years ago, I held hearings on bridge safety. One of 
the salient issues raised in those hearings was underwater 
inspections to be done by seasoned, experienced personnel 
within the Department. We held that hearing on the 20th 
anniversary of the collapse of the Silver Bridge in West 
Virginia when 46 people died to see what improvements have been 
made in bridge safety. A witness at those hearings, and this is 
a Ph.D. bridge engineer, said that bridge inspection and 
maintenance is in the Stone Age across America.
    In 1987, I observed at the opening of that hearing, we had 
363,000 bridges in America. Today, we have 597,000 bridges 
throughout the Country. We had 73,000 bridges in 1987 that were 
structurally or functionally deficient, 73,000 total. Now we 
have 73,000 structurally deficient bridges and another 74,000 
that are functionally deficient.
    We can't keep sweeping this problem under the rug and 
expect the Nation to function effectively. Now the 70,000 or so 
bridges on the National Highway System that are structurally 
deficient carry 70 percent of the bridge traffic of the Nation.
    There is a financial cost to a bridge being shut down as we 
are experiencing in Minnesota. When it collapsed, on the south 
side, it shut down barge traffic. That diverted those 
commodities, aggregate principally, sand and gravel, to truck 
traffic. Put another 275 trucks on the road. On the north side, 
it shut down rail traffic. That put another 50 trucks on the 
road, 50 to 75, by some estimates.
    Now the channel is open. The barge traffic has resumed. The 
rail will be able to operate. But there is a huge cost, a huge 
loss.
    Now it is going to take longer and be more costly to 
replace that bridge under a contract that was awarded to the 
highest bidder, not the lowest bidder, the one that will take 
the longer time, not the shorter period of time, and with a 
number of questions hanging over whether there is going to be 
enough capability to oversee the construction to make sure it 
is all being done properly because we don't have the personnel, 
as you point out very well in your testimony.
    I thank you for your courage in coming to the Committee and 
laying it out.
    Now let me ask you. I had a meeting with some of your 
colleagues the week after the bridge collapsed, and I laid out 
my four-point proposal for the bridge program including raising 
the standards by which we determine structural deficiency, 
having more rigorous evaluation of bridges. That may include 
more bridges that are structurally deficient--I don't know--but 
I think we need to do that.
    Raising the qualifications and training, intensify the 
training and skills of bridge inspectors and their overseers, 
establishing a bridge trust fund for structurally deficient 
bridges.
    The fourth item is a dedicated revenue stream with a five 
cent increase in the user fee in an earmark-free process by 
which the determination of the structural deficient bridges 
will be made, verified by the National Academy of Sciences and, 
once established, will not be tampered with by the National 
Executive Branch or State Executive Branch or by the Congress. 
If there is any deviation from the list, then the Secretary of 
the Treasury will be directed to shut down funding for the 
whole program.
    Now what problems do you see?
    This is a three-year program, sunsetted at the end of three 
years.
    What problems do you see along the road for assuring that 
we have sufficient trained bridge inspectors, trained to the 
highest level? Where should the funds come from to do that?
    What are the issues raised in evaluating and permitting 
bridges?
    What are the obstacles to getting something like this done 
in a very short time frame to deal, say, 6,000 or so if you 
make a rough estimate of the most critical structurally 
deficient bridges? What are the obstacles to getting there?
    Let me start with you, Mr. Andersen.
    Mr. Andersen. To be quite frank, some of those answers are 
probably above my pay grade. My biggest concern at this point, 
to be honest, would be the accountability at the level of 
management and engineering that make the decisions.
    Like I said, I am about as rank and file as it gets. When I 
go out, if I am involved in an inspection, once my inspection 
report is done, it is passed on to the engineering level, and 
that is the last I see of it. I won't get any feedback, whether 
any of the deficiencies I found or any preventive maintenance 
items I found need to be attended to immediately. I don't have 
that decision-making power.
    So, like I said, I guess my concerns would lie in the fact 
that any changes in the system at this point, any new monies 
allocated to take care of some of these issues, just I would 
hope there would be some sort of an accountability factor built 
in there that there is going to have to be a very adequate 
recording purpose from your level on down that says these are 
our expectations; these were things we assumed were going to be 
looked at and taken care of; where are we at now.
    If that is in there, that is wonderful. But I hope all 
departments are held to that accountability standard because, 
like I said, when we get to a point where a deficiency rating 
is given to a bridge which ultimately depends on how some of 
the funding comes down, at the lowest levels where those 
ratings are being made, the decision-making and the monies that 
come back to those problem areas are decisions made far above 
where I am at. Like I said, it is hard for us on a daily basis 
to see these problems going untouched.
    Mr. Oberstar. Thank you. I appreciate that. Accountability 
is absolutely critical.
    Mr. McCabe, you have three items: apply advanced 
technologies, techniques and materials; a dedicated methodology 
to allocate funding, which we would address; and improvements 
to the bridge inspection and rating systems.
    Those points that I raised in our draft proposal, is that 
square with what you are thinking about?
    Mr. McCabe. Very much so, Mr. Oberstar.
    I think I would just like to go back to your roadblocks. I 
think it is very clear that the roadblocks to accomplishing 
what we need to accomplish are fairly simple: money, 
prioritization and, as Mr. Andersen said, accountability. We 
need those three things to enter the equation to get our 
bridges safe.
    Mr. Oberstar. Using non-destructive evaluation of bridges, 
which was in Dr. Washer's testimony, that was an issue raised 
20 years ago. It has not been fully implemented across the 
Country. What is the resistance? Is it resistance or is it 
simply neglect of using available technologies? We do it in 
aviation.
    Mr. Washer. Well, yes, it has been an issue for 20 years. 
There have been a lot of advancements in the last 20 years.
    Mr. Oberstar. Yes.
    Mr. Washer. Is it used as broadly maybe as it could be 
used? Maybe not, but there has certainly been a lot of 
advancements in the number of times, in the frequency of use, 
and there are surveys of States that demonstrate that that have 
been published by the Federal Highway Administration. So there 
has been a lot of progress in this area of implementing NDE 
technologies.
    But I think one of the points that ought to be is that it 
is not a simple process. It is not simple in aerospace, and it 
is not simple here. Finding a way to integrate those 
technologies into the operation has a lot of challenges. 
Learning the reliability of those beyond just being able to 
demonstrate a simple capability in a laboratory is a subject of 
research.
    I would find that we have made a tremendous amount of 
progress in the last 20 years in that particular area, in 
figuring out what are the capabilities of these different NDE 
techniques and how to integrate them into our systems.
    I will give you, as an example, ultrasonic inspection of 
bridge pins which is widely used. It wasn't used at all 30 
years ago. Learning from experience that we had with failures, 
now it is widely used. I would venture that almost every State 
uses it for pins in their particular State, and various States 
are looking at advanced ultrasonic technology like phased 
arrays that have come out of medical industry on how to improve 
that process.
    It is a growing field. There is more research needed, in my 
opinion, in that particular field. There are a lot of 
technologies available. If we can figure out how to apply them 
effectively within the context of a bridge inspection, then 
there is a tremendous amount of potential there to improve the 
safety of bridges.
    Mr. Oberstar. Are you familiar with the application of 
those technologies by the various State Departments of 
Transportation?
    Mr. Washer. Generally familiar with it, yes.
    Mr. Oberstar. Twenty years ago, they weren't applying those 
technologies, and I have the impression that dragging a chain 
over a bridge is still a widely applied technology to determine 
what the sound is and how it sounds to the trained ear instead 
of using eddy current technology and dye and ultrasound which 
we use in testing the hull of aircraft.
    Mr. Washer. Yes, there are a few different, I guess, issues 
to address there. The sounding and chain drags have proven to 
be extremely effective over the years in terms of cost of 
assessing concrete which is a heterogenous material, which is 
very complicated to assess with NDE technologies.
    Metals are really a separate thing because metals are much 
less heterogenous, and so you can use eddy current and 
ultrasound on them and have more effective techniques.
    Now having said that, the sounding and chain drag 
techniques have been advanced over the years, and there are a 
lot of flavors of that technique in terms of impact echo, 
instrumented chain drags and a whole host of others that have 
been developed. Those are implemented periodically. 
Sporadically would not be the right term, but when needed with 
State DOTs, they do implement some of those technologies.
    But it is really hard and difficult to compete with 
sounding and chain drag. In fact, I would submit that most 
States would measure any new technology according to its 
effectiveness compared with chain dragging and sounding because 
that has proven to be a reliable technique within their 
experience.
    Now does that have reliability issues as well? Yes, and the 
study of those reliability issues is an important factor in the 
widespread use of newer technologies.
    Mr. Oberstar. Thank you. I have a ton of other questions, 
but you have been here a long time and we have votes on the 
Floor and I have another meeting to attend to.
    So I will have to just say thank you and thanks to the 
Federal Highway Administration for being here. Thanks every so 
much for your presentations.
    Mr. DeFazio. Thank you, Mr. Chairman. The Chairman is 
multi-tasking as usual.
    I want to thank you all for being here, for your testimony 
today and looking for ways to enhance and improve these 
programs so we can better protect the traveling public.
    With that, the Committee is adjourned.
    [Whereupon, at 4:25 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8566.010
    
    [GRAPHIC] [TIFF OMITTED] T8566.011
    
    [GRAPHIC] [TIFF OMITTED] T8566.012
    
    [GRAPHIC] [TIFF OMITTED] T8566.013
    
    [GRAPHIC] [TIFF OMITTED] T8566.014
    
    [GRAPHIC] [TIFF OMITTED] T8566.015
    
    [GRAPHIC] [TIFF OMITTED] T8566.016
    
    [GRAPHIC] [TIFF OMITTED] T8566.017
    
    [GRAPHIC] [TIFF OMITTED] T8566.018
    
    [GRAPHIC] [TIFF OMITTED] T8566.019
    
    [GRAPHIC] [TIFF OMITTED] T8566.020
    
    [GRAPHIC] [TIFF OMITTED] T8566.021
    
    [GRAPHIC] [TIFF OMITTED] T8566.022
    
    [GRAPHIC] [TIFF OMITTED] T8566.023
    
    [GRAPHIC] [TIFF OMITTED] T8566.024
    
    [GRAPHIC] [TIFF OMITTED] T8566.025
    
    [GRAPHIC] [TIFF OMITTED] T8566.026
    
    [GRAPHIC] [TIFF OMITTED] T8566.027
    
    [GRAPHIC] [TIFF OMITTED] T8566.028
    
    [GRAPHIC] [TIFF OMITTED] T8566.029
    
    [GRAPHIC] [TIFF OMITTED] T8566.030
    
    [GRAPHIC] [TIFF OMITTED] T8566.031
    
    [GRAPHIC] [TIFF OMITTED] T8566.032
    
    [GRAPHIC] [TIFF OMITTED] T8566.033
    
    [GRAPHIC] [TIFF OMITTED] T8566.034
    
    [GRAPHIC] [TIFF OMITTED] T8566.035
    
    [GRAPHIC] [TIFF OMITTED] T8566.036
    
    [GRAPHIC] [TIFF OMITTED] T8566.037
    
    [GRAPHIC] [TIFF OMITTED] T8566.038
    
    [GRAPHIC] [TIFF OMITTED] T8566.039
    
    [GRAPHIC] [TIFF OMITTED] T8566.040
    
    [GRAPHIC] [TIFF OMITTED] T8566.041
    
    [GRAPHIC] [TIFF OMITTED] T8566.042
    
    [GRAPHIC] [TIFF OMITTED] T8566.043
    
    [GRAPHIC] [TIFF OMITTED] T8566.044
    
    [GRAPHIC] [TIFF OMITTED] T8566.045
    
    [GRAPHIC] [TIFF OMITTED] T8566.046
    
    [GRAPHIC] [TIFF OMITTED] T8566.047
    
    [GRAPHIC] [TIFF OMITTED] T8566.048
    
    [GRAPHIC] [TIFF OMITTED] T8566.049
    
    [GRAPHIC] [TIFF OMITTED] T8566.050
    
    [GRAPHIC] [TIFF OMITTED] T8566.051
    
    [GRAPHIC] [TIFF OMITTED] T8566.052
    
    [GRAPHIC] [TIFF OMITTED] T8566.053
    
    [GRAPHIC] [TIFF OMITTED] T8566.054
    
    [GRAPHIC] [TIFF OMITTED] T8566.055
    
    [GRAPHIC] [TIFF OMITTED] T8566.056
    
    [GRAPHIC] [TIFF OMITTED] T8566.057
    
    [GRAPHIC] [TIFF OMITTED] T8566.058
    
    [GRAPHIC] [TIFF OMITTED] T8566.059
    
    [GRAPHIC] [TIFF OMITTED] T8566.060
    
    [GRAPHIC] [TIFF OMITTED] T8566.061
    
    [GRAPHIC] [TIFF OMITTED] T8566.062
    
    [GRAPHIC] [TIFF OMITTED] T8566.063
    
    [GRAPHIC] [TIFF OMITTED] T8566.064
    
    [GRAPHIC] [TIFF OMITTED] T8566.065
    
    [GRAPHIC] [TIFF OMITTED] T8566.066
    
    [GRAPHIC] [TIFF OMITTED] T8566.067
    
    [GRAPHIC] [TIFF OMITTED] T8566.068
    
    [GRAPHIC] [TIFF OMITTED] T8566.069
    
    [GRAPHIC] [TIFF OMITTED] T8566.070
    
    [GRAPHIC] [TIFF OMITTED] T8566.071
    
    [GRAPHIC] [TIFF OMITTED] T8566.072
    
    [GRAPHIC] [TIFF OMITTED] T8566.073
    
    [GRAPHIC] [TIFF OMITTED] T8566.074
    
    [GRAPHIC] [TIFF OMITTED] T8566.075
    
    [GRAPHIC] [TIFF OMITTED] T8566.076
    
    [GRAPHIC] [TIFF OMITTED] T8566.077
    
    [GRAPHIC] [TIFF OMITTED] T8566.078
    
    [GRAPHIC] [TIFF OMITTED] T8566.079
    
    [GRAPHIC] [TIFF OMITTED] T8566.080
    
    [GRAPHIC] [TIFF OMITTED] T8566.081
    
    [GRAPHIC] [TIFF OMITTED] T8566.082
    
    [GRAPHIC] [TIFF OMITTED] T8566.083
    
    [GRAPHIC] [TIFF OMITTED] T8566.084
    
    [GRAPHIC] [TIFF OMITTED] T8566.085
    
    [GRAPHIC] [TIFF OMITTED] T8566.086
    
    [GRAPHIC] [TIFF OMITTED] T8566.087
    
    [GRAPHIC] [TIFF OMITTED] T8566.088
    
    [GRAPHIC] [TIFF OMITTED] T8566.089
    
    [GRAPHIC] [TIFF OMITTED] T8566.090
    
    [GRAPHIC] [TIFF OMITTED] T8566.091
    
    [GRAPHIC] [TIFF OMITTED] T8566.092
    
    [GRAPHIC] [TIFF OMITTED] T8566.093
    
    [GRAPHIC] [TIFF OMITTED] T8566.094
    
    [GRAPHIC] [TIFF OMITTED] T8566.095
    
    [GRAPHIC] [TIFF OMITTED] T8566.096
    
    [GRAPHIC] [TIFF OMITTED] T8566.097
    
    [GRAPHIC] [TIFF OMITTED] T8566.098
    
    [GRAPHIC] [TIFF OMITTED] T8566.099
    
    [GRAPHIC] [TIFF OMITTED] T8566.100
    
    [GRAPHIC] [TIFF OMITTED] T8566.101
    
    [GRAPHIC] [TIFF OMITTED] T8566.102
    
    [GRAPHIC] [TIFF OMITTED] T8566.103
    
    [GRAPHIC] [TIFF OMITTED] T8566.104
    
    [GRAPHIC] [TIFF OMITTED] T8566.105
    
    [GRAPHIC] [TIFF OMITTED] T8566.106
    
    [GRAPHIC] [TIFF OMITTED] T8566.107
    
    [GRAPHIC] [TIFF OMITTED] T8566.108
    
    [GRAPHIC] [TIFF OMITTED] T8566.109
    
                                    

</pre></body></html>
